No.

IN THE
SUPREME COURT OF THE UNITED STATES

Lilibeth Michelson - Petitioner
v.
The Department of the Army — Respondent

PROOF OF SERVICE
I, Lilibeth Michelson, do swear or declare that on this date, August 10, 2020 ,
as required by Supreme Court Rule 29 I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by causing the depositing of an envelope
containing the above documents in the United States mail properly addressed to each
of them and with first-class postage prepaid. The names and addresses of those
served are as follows:
Isaac B. Rosenberg
Department of Justice
Ben Franklin Station
PO Box 480
Washington, DC 20044
Counsel for Respondent
Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania, Ave., NW
Washington, DC 20530
I declare under penalty of perjury that the foregoing is true and correct. Executed on
August 10, 2020.

